                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

 Case Number: 1-13080052                                                                  Page 1 of 1



         We received an allegation that a company 1 was under investigation by other federal agencies for
         potential bribery and fraud. A review of the company's documentation found that the company
         had subcontracted out a significant portion of its work without NSF approval, and reported
         inaccurate effort on its final report. We recommended that NSF terminate the final payment of
         the award. NSF agreed with the termination recommendation, resulting in $49,991 put to better
         use.

         This case is closed with no further action taken.




NSF OIG Form 2 ( 11/02)
